t

$

APPENDIX-A
DOCUMENT 1-6

\

/w

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
GREGORY LAMAR MATHIS,
Petitioner,

)
)
)
)

v. .

)
)

KEVIN GENOVESE, Warden,

)
)
)

Respondent.

Case No. 3:18-cv-01330
Judge Trauger

ORDER
Gregory Lamar Mathis, an inmate at the Turney Center Industrial Complex in Only,
Tennessee, has filed a pro se petition for writ of habeas corpus under 28 U.S.C. § 2254. (Doc. No.
1.) He has not paid the $5.00 filing fee, 28 U.S.C. § 1914(a), nor has he filed a proper application
for leave to proceed in forma pauperis (IFP). However, appended to the petition is a financial
affidavit, a certificate showing the petitioner’s inmate trust fund account balance, and a copy of
his account history for the preceding six months (Id. at 51-57.) The court construes the affidavit
and certificate together as an application to proceed IFP. See Rule 3(a), Rules Gov’g § 2254 Cases.
The petitioner’s financial affidavit shows that he lacks any earnings, other income, or funds
held in cash or traditional accounts. (Id. at 51.) However, as of November 15, 2018, a Turney
Center official certified that the petitioner’s current inmate trust fund account balance was $70.01,
and that his average balance over the preceding six months had been $424.21. (Id. at 52.)
Accordingly, the petitioner has demonstrated that he has sufficient funds to pay the $5.00 filing
fee. His application to proceed IFP is therefore DENIED.
If the petitioner seeks to have this court consider his petition, he MUST submit the $5.00
\

filing fee within 30 days of the date this order is entered on the docket.
\

\
\

Case 3:18-cv-01330 Document 3 Filed 01/07/19 Page 1 of 2 PagelD #: 62

f\-A)
f

fw

The petitioner is cautioned that if he does not comply with this order within the time frame
specified, or request an extension of the deadline before it expires, this action will be dismissed
for failure to prosecute and for failure to comply with the court’s order.
It is so ORDERED.
ENTER this 7th day of January 2019.

A
/
Aleta A. Trauger
United States District Judge

2
Case 3:18-cv-01330 Document 3 Filed 01/07/19 Page 2 of 2 PagelD #: 63

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
GREGORY LAMAR MATHIS,
Petitioner,

)
)
)
)

v.-

)
)

KEVIN GENOVESE, Warden,

)
)
)

Respondent.

Case No. 3:18-cv-01330' Judge Trauger

ORDER
Gregory Lamar Mathis, an inmate of the Turney Center Industrial Complex in Only,
Tennessee, has filed apro se petition for the writ of habeas corpus pursuant to 28 U.S.C. § 2254.
(Doc. No. 1.) After filing an application for leave to proceed in forma pauperis (IFP) on February
4, 2019 (Doc. No. 7), the petitioner paid the $5.00 filing fee on;February 6; 2019. (Doc. No. 8.)
Accordingly, the IFP application (Doc. No. 7) is DENIED as moot, and the petition is now before
the court for an initial review. See Rule 4 of the Rules Governing § 2254 Cases in the United States
District Courts (“Habeas Rules”).
Under Habeas Rule 4, the court is required to examine § 2254 petitions to ascertain as a
preliminary matter whether “it plainly appears from the petition and any attached exhibits that the
petitioner is not entitled to relief in the district court.” Id. According to the petition, the petitioner
was convicted in 2010 of one count of aggravated robbery, one count of burglary,' and two counts
of especially aggravated kidnapping in the Davidson County Criminal Court and was sentenced to
126 years in prison. (Doc. No. 1 at 1, 5.) The petitioner now challenges the legality of his
conviction. For purposes of this preliminary review, the court liberally construes the petition as

Case 3:18-cv-01330 Document 9 Filed 03/04/19 Page 1 of 4 PagelD #: 76 .

kd

raising claims which include the insufficiency of the evidence against him and the failure of the
trial court to properly instruct the jury. {Id. at 7.)1
The alleged insufficiency of the evidence to support the petitioner’s conviction states a
colorable claim for habeas corpus relief, Peoples v. Lafler, 734 F.3d 503, 517 (6th Cir. 2013), as.
does-the alleged failure to properly instruct the jury. Bowling v. Parker, 344 F.3d' 487, 499-500"
(6th Cir. 2003). Because it is not now readily apparent from the face of the petition that the
petitioner is not entitled to such relief, the respondent is DIRECTED to file an answer, plead or:
-

otherwise respond to the petition in accordance with Habeas Rule 5 within 30 days of the entry of ■
this Order. If the respondent takes the position in his submission that the petitioner has failed to
exhaust his available state remedies for the claim(s) raised in the petition, the respondent MUST
clearly identify those remedies, citing any applicable statutes, rules, or regulations, and explain the
procedure.for their exhaustion.
On that same date, the respondent shall also file the complete state court record relevant to
this matter, including the complete trial court record, the complete record on direct appeal, and the
com plete trial and appellate court record in connection with any state petition for collateral relief
including, but not limited to, transcripts for all proceedings and rulings on any state petition. See
Habeas Rule 5(c) and (d). The respondent’s notice of filing shall include a comprehensive index
indicating the precise location of each distinct part of the relevant record (e.g., plea proceedings,
pretrial hearing, transcripts, voir dire, each portion of trial testimony, trial exhibits, jury
'

iTTStnrctrons,"verdict, each-party’s briefs at each-level o:f appeal-,-eac]r-GourUs-fina.!-r44Jing-on.appeal------and collateral proceedings, etc.). The record shall be organized and appropriately.indexed, and

1
The petitioner asserts that “both evidence and record clearly demonstrate an absence in
consummation of alleged crimes and the trial court’s neglect in tendering peremptory instructions
which could and would have negated the Petitioner’s guilt.” (Doc. No. 1 at 7.)
2

Case 3:18-cv-01330 Document 9 Filed 03/04/19 Page 2 of 4 PagelD #: 77

distinct parts of the record should be electronically bookmarked for ease of reference in identifying
documents relevant to the state court proceedings.
If the respondent files an answer, the answer must comply with the requirements set forth
in Habeas Rule 5. The answer shall address each alleged ground for relief and shall be fully briefed
'with citations to the state court record and to governing Supreme'Court precedent. For each claim,.........
the answer shall, at a minimum: (1) assert any procedural defenses; (2) identify the clearly
established Supreme Court precedent governing the claim; (3) state whether the claim was
exhausted in state court; (4) cite the state court’s ruling for exhausted claims; and (5) respond to
the petitioner’s argument that he is entitled to habeas relief on the claim with appropriate reasoned
legal and factual argument.
Failure to comply with these requirements may result in the respondent being directed to
file a new answer in conformance with these requirements.
The petitioner may file a reply to the respondent’s answer limited to disputing specific
points of fact or law raised by the answer within 30 days of the date the answer is filed. The court
will consider the matter ripe for review if the petitioner fails to file a reply, or to seek additional
time to file a reply, within 30 days of the date the answer is filed.
If the respondent files a motion, the motion shall comply with the requirements of the
Federal Rules of Civil Procedure, see Habeas Rule 12, and where relevant, shall address the issues
of exhaustion and timeliness.
----- The-petitioner may fi le-a--response-to-tbe respondents motion within 30 days of the date
the motion is filed. If the petitioner fails to respond timely to the respondent’s motion, or fails to
seek additional time to respond, the court may construe the petitioner’s silence as his agreement
that the motion has merit and may grant the motion without, further briefing. The respondent may

3

Case 3:18-cv-01330 Document 9 Filed 03/04/19 Page 3 of 4 PagelD #: 78

file a reply, or seek additional time to file a reply, within 15 days of the date the petitioner s
response to the motion is filed.
The Clerk is DIRECTED to serve a copy of the petition and this order by mail on the
res pondent and the Attorney General of Tennessee. See Habeas Rule 4.
It is so ORDERED;
ENTER this 4th day of March 2019.

Aleta A. Trauger
Is
United States District Judge

4
Case 3:18-cv-01330 Document 9 Filed 03/04/19 Page 4 of 4 PagelD #; 79

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
GREGORYL. MATHIS,
Petitioner

Vs.

Case no. 3:18-cv-01330
Judge Trauger

KEViNGENOVESE, Warden
Respondent

PETITIONER’S REPLY

Come the Petitioner, Gregory L. Mathis, pro. se, pursuant to Rule 5(e),.
governing cases under 28 USC § 2254, to give reply to the Respondent’s Motion
To Dismiss with Memorandum in support.
Therefore, Petitioner now moves this court in “striking” the Respondent’s
, ,V •

*

*

"

Motion to Dismiss in view and consideration of the Petitioner’s attached indicia hereafter; Supplemental Appendices A & D, which clearly demonstrates both a
timely, submission of his petition as well as a thorough exhaustion of his issues
now being submitted from a [post] conviction point of view, and, in accordance
with the "gate-keeping” standards of both Titles 28 USC §§ 2244 & 2254’
Further, now requires this Court’s scheduling-order for both an Evidentiary
Hearing as well as the appointment of counsel, consistent with Rule 8(a)& (b)

R-Z

governing cases under §2254 as well as Rule 16 of the F.R.Civ.P. made feasible
via Rule 12 governing cases under § 2254.

RESPONDENT’S MEMORANDUM
Procedural History;
Here, and for the greater part of respondent’s historical reflection of
record, petitioner will accept and agree with its accuracy; however, as to —

ARGUMENT
i.
REPLY:
Petitioner must oppose Respondent’s assertion that he’s restricted to the
Habeas Act’s statute of limitations, where his records unrefuted showing
demonstrates, “first,” his appointed counsel’s complacency [Apdx,doc.1 -7 ], in
each prior action, and “secondly,” his independent [post] filing attempt to
overcome his conviction, see also [Apdx-doc. 5 & 7 ], which and for all intents
and purposes, satisfies the gate-keeping standards of both §§2244 & 2254, id.
Consider the court’s conclusion held in our U.S. Supreme Court in Rose v.
Lundy. 102 S.Ct. 1198,455 U.S. 509; 71 LEd.2d.379 (1982) with Sales v. Tavlor.
2015 , [WL-4487833;USDC, E.D. Tenn.], at first blush respondent complains of
petitioner’s tardiness where “it appears’’ he failed to meet the mailbox-rule,
whose representation was majoritively controlled by appointed attorneys; See
[Apdx.B, doc. 5 ],

2

Petitioner’s documents will further show that, even to be in the position'to
account for a timely conclusion of his [State] appeals which were submitted
through counsel [Apdx, doc. 1-3], the timely commencement of a post-conviction
action created this “pause” in the initial filing of a Federal Habeas Action; See
[Apdx.B,doc.7]with Sales, supra at p.2, which had not fully run—and!, in view of
a 3-way-option, which is to also point out, that at the moment of the petitioner's
exhaustion of his highest state court review, appellate procedure allows him a
choice of filing into either the federal courts (having one year to do so), or the
U.S. Supreme Court (which covers a 90-day period, or finally, (as he chose to
do) file back into the state court of record (having 1-year to do sojproviding this
entitlement, and was “encouraged to take this course of action by counself'
[Apdx.B,doc.5],
ARGUMENT

u

REPLY:
In addition to this, petitioner is entitled to equitable tolling where he is able
to show—1.] That he was in constant pursuit of his rights [Apdx/ A & B,]$s
. revealed here, 2.] That some extra-ordinary circumstances, e.g. attorneys,
(

prevented a timely filing which put matters beyond his control—“and did.’’ See
also [Apdx. A doc.2 & 4 ]; Sales at p.2.
Contrary to the respondent’s presumptuous findings, the petitioner’s
supplemental indicia, id, proves otherwise in supporting his entitlement for
equitable tolling; also id. However and of utmost concern as pointed out in our
U.S. Supreme Court in Rose v. Lundy, supra at p.8, a clear and simple

3

instruction was given to the prospective litigant, and for purposes of utilizing “The
Writ, ” which is to say“Before you bring any claims to federal
court, be sure that you first have taken
‘each’ one to state court... to master this
straightforward exhaustion requirement”
[emphasis, added].

CONCLUSION
Therefore, Congressional logic dictates, that nothing in the traditions of
habeas corpus requires the federal courts to tolerate needless “piecemeal”
litigation, such as eluded to by the respondent, of to entertain collateral
proceedings whose only purpose is to vex, harass or delay, in this instance, .
petitioner’s relief, now suggesting a Hearing for further proceedings.
spectfully su,

1ted,

-JL___>
G,
LTMathis, #227732
Turney Center Industrial Complex
1499 R.W. Moore Memorial Hwy.
Only, Tennessee. 37140-4050

4

CERTIFICATION

This is to certify, that the foregoing Petitioner’s Reply was filed on
this \V\VWday

2019, via U.S. Postal Service; prepaid to the Clerk

of the U,S. District Court, Middle Division, located at the U.S. Courthouse; Room
800, 801 Broadway, Nashville, Tennessee 37203-3816. And to;
T.Austin Watkins.
Asst, Attorney General
Fed. Habeas Corpus Div.
B..P.R No. 32425
P.O. Box 20207
Nashville, Tennessee. 37202
(----------'

C0

^—-Gregory Lij/lathfi, pro se.
C: file/glm

V

5

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
GREGORY LAMAR MATHIS,
Petitioner,
' v.
KEVIN GENOVESE, Warden,
Respondent.

)
)
)
)
)
)
)
)
)

No. 3:18-cv-01330
Judge Trauger

REPLY TO PETITIONER’S RESPONSE TO MOTION TO DISMISS

Comes now Respondent, pursuant to this Court’s order (ECF No. 9), and replies to
Petitioner’s response (ECF No. 17) to Respondent’s motion to dismiss the habeas corpus petition
as untimely (ECF No. 15). Petitioner argues that the petition is not untimely and that he is entitled
to Equitable tolling. (See ECF No. 17.) Because both arguments are unpersuasive, the motion to
dismiss should be granted.
To support his argument that the petition was filed timely, Petitioner submitted
miscellaneous appellate court documents. {See id.) However, none of those documents undermine
the accuracy of Respondent’s timeliness calculation. The documents regarding the Court of
Criminal Appeals’s rejection of Petitioner’s pro se filings during the post-conviction appeal all
occurred during the period in which the statute of limitations was statutorily tolled under 28 U.S.C.
§ 2244(d)(2). {See id. at PagelD 1608-10.) Likewise, the documents regarding Petitioner’s
application for permission to appeal to the Tennessee Supreme Court on post-conviction appeal
all occurred during the period in which the statute of limitations was statutorily tolled. {See id. at
1611-13.) The same is true for the post-conviction court’s preliminary order appointing post-

1

Z-3

• !

conviction counsel. (See id. at 1621.) As can be seen, the habeas corpus petition is untimely, and
Petitioner’s submissions do not demonstrate otherwise.
To support his argument that he is entitled to equitable tolling of the statute of limitations,
Petitioner has submitted letters from his counsel at trial and on direct appeal. (See id. at 1615-20.)
Petitioner has not explained how the letters from counsel support his bald assertion that counsel’s
conduct was an extraordinary circumstance to justify equitable tolling. (See id. at 1604-05.) At
most, those documents suggest that there might have been some delay between the end of the direct
appeal proceedings and the transfer of copies of the trial transcripts to petitioner before the filing
of his pro se petition for post-conviction relief.1 (See id. at 1620.) However, it is apparent that
any delay was neither the cause of Petitioner’s untimely filing nor an extraordinary circumstance.
Moreover, the Sixth Circuit has held that “the unavailability of or delay in receiving transcripts is
not enough to entitle a habeas petitioner to equitable tolling.” Hall v. Warden, 662 F.3d 745, 750; 51 (6th Cir. 2011). Because Petitioner cannot carry his burden of demonstrating that he is entitled
to equitable tolling, the untimely habeas corpus petition should be dismissed.

Respondent notes that this letter from counsel was sent to Petitioner after the denial of the'
application for permission to appeal to the Tennessee Supreme Court but before time expired for
filing a petition for writ of certiorari in the Supreme Court of the United States. As such, nothing
affirmatively demonstrates that Petitioner did not receive the transcripts from counsel before the
statutory tolling period ended.
2

Respectfully submitted,
HERBERT H. SLATERY III
Attorney General and Reporter
/s/ T. Austin Watkins
T. AUSTIN WATKINS
Assistant Attorney General
Federal Habeas Corpus Division
B.P.R. No. 32425
P.O. Box 20207
Nashville, Tennessee 37202
(615)532-1119
Austin.Watkins@ag.tn.gov

CERTIFICATE OF SERVICE
I certify that the foregoing Reply was filed electronically on July 2, 2019. A copy of the
foregoing will be forwarded on the same day by FedEx to: Gregory Lamar Mathis #227732,
Turney Center Industrial Complex, 1499 R.W. Moore Memorial Hwy, Only, TN 37140.
/s/ T. Austin Watkins
T. AUSTIN WATKINS
Assistant Attorney General

3

in opposition to the motion to dismiss (Doc. No. 17), and the respondent filed a reply to the
petitioner’s response. (Doc. No. 18.)
Having carefully considered these pleadings and the record, it appears that an evidentiary
hearing is not needed in this matter. See Smith v. United States, 348 F.3d 545, 550 (6th Cir. 2003)
(an evidentiary hearing is not required when the record conclusively shows that the petitioner is
entitled to no relief). Therefore, the court shall dispose of the petition as the law and justice require.
Rule 8, Rules Gov’g § 2254 Cases.
II. Procedural History
Following the petitioner’s 2010 conviction and sentencing, the Tennessee Court of
Criminal. Appeals (TCCA) affirmed the Davidson County Criminal Court in a decision dated
September 5, 2013, and the Tennessee Supreme Court denied discretionary review on December
12,2013. State v. Mathis, No. M2011-01096-CCA-R3-CD, 2013 WL 4774130 (Tenn. Crim. App.
Sept. 5, 2013),perm. app. denied (Tenn. Dec. 12, 2013). The petitioner did not seek review in the
U.S. Supreme Court.
On October 3, 2014, the petitioner filed a pro se petition for post-conviction relief in state
court (Doc. No. 14-17 at 36-49), which was submitted to prison authorities for mailing on
September 23, 2014. (Id. at 48.) The post-conviction trial court appointed counsel, who filed an
amended petition. (Id. at 68-72.) The trial court ultimately denied the amended petition after
holding an evidentiary hearing. (Id. at 75-90; Doc. No. 14-18.) The TCCA affirmed the trial
court’s denial of post-conviction relief in a decision dated November 21,2017, and the petitioner s
application for permission to appeal to the Tennessee Supreme Court was denied on February 14,
2018. Mathis v. State, No. M2016-02516-CCA-R3-PC, 2017 WL 5624714 (Tenn. Crim. App.
Nov. 21, 2017), perm. app. denied (Tenn. Feb. 14, 2018).

2

Case 3:18-cv-01330 Document 19 Filed 02/21/20 Page 2 of 7 PagelD #: 1628

The petitioner submitted his undated, pro se Section 2254 petition to prison authorities for
mailing no later than November 26,2018, the date it is postmarked. (Doc. No. 1 at 58.) The petition
was received and filed in this court on November 28, 2018.
III. Analysis
A. Timeliness of the Petition
Petitions under Section 2254 are subject to a one-year statute of limitations. 28 U.S.C.
§ 2244(d)(1); Holland v. Florida, 560 U.S. 631, 635 (2010). In most cases, including the case at
bar, the limitations period runs from “the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for seeking such review.” Id.
§ 2244(d)(1)(A). Following the Tennessee Supreme Court’s denial of discretionary review on
December 12, 2013,.the petitioner had ninety days in which to take the final step in the direct
appeal process by filing a petition for writ of certiorari in the U.S. Supreme Court. Because he did
not file such a petition, his conviction became final at the conclusion of this ninety-day period, on
March 12,2014. Gonzalez v. Thaler, 132 S. Ct. 641, 653 (2012); Jimenez v. Quarterman, 555 U.S.
113,120 (2009). The running of the statute of limitations is counted from the following day, March
13, 2014. See Fed. R. Civ. P. 6(a)(1)(A) (when computing a time period “stated in days or a longer
unit of time ... exclude the day of the event that triggers the period”); Bronaugh v. Ohio, 235 F.3d
280,284 (6th Cir. 2000) (applying Rule 6(a)’s standards for computing periods of time to habeas
filing)..
However, “[t]he time during which a properly filed application for State post-conviction
or other collateral review ... is pending shall not be counted toward” the limitations period. 28
U.S.C. § 2244(d)(2). The petitioner submitted his pro se post-conviction petition to prison
authorities for mailing on September 23, 2014 and is deemed to have filed it on that day under the

3

Case 3:18-cv-01330 Document 19 Filed 02/21/20 Page 3 of 7 PagelD #: 1629

Tennessee Rules of Post-Conviction Procedure. See Tenn. Sup. Ct. R. 28, § 2(G). The period of
statutory tolling thus began on September 23, 20141 (the 195th day after the statute began to run)
and continued until February 14, 2018, when the Tennessee Supreme Court declined to review the
post-conviction case. With the conclusion of state post-conviction proceedings, the one-year
limitations period resumed running the next day, on February 15, 2018. Lawrence v. Florida, 549
U.S. 327, 331-32 (2007). At that point, the petitioner had 171 days (365 minus 194) remaining—
or until August 6, 2018—in which to file a timely federal habeas petition.
The petitioner filed his federal habeas petition on November 26, 2018—113 days after the
limitations period expired—when he delivered it to prison authorities for mailing to the court.
Brand v. Motley, 526 F.3d 921, 925 (6th Cir. 2008) (recognizing “relaxed filing standard” under
which “a pro se prisoner’s complaint is deemed filed when it is handed over to prison officials for
mailing to the court”). The parties agree on the operative dates recited above,, although the
petitioner appears to believe that the application of statutory tolling while he pursued postconviction remedies should render his habeas petition timely. (See Doc. No. 17 at 1—3.) Clearly,
however, even with the benefit of statutory tolling and the relaxed filing standard for pro se
prisoners, the petitioner’s filing in this court was not timely. The only remaining issue is whether
the court should nonetheless reach the merits of the petition because the petitioner is entitled to
equitable tolling of the limitations period.

1
The petition refers to an earlier filing of a “Motion to Correct or Amend Sentence” on June 11,
2014, based on an alleged error in the application of a sentencing statute. (Doc. No. 1 at 6.) Even if that
.motion qualifies as a collateral filing for purposes of tolling under Section 2244(d)(2), the petition states
that the motion was denied on June 20, 2014, nine days after it was filed, and not further pursued. As will
be demonstrated, nine additional days of tolling would not affect the timeliness determination in this case.
4
Case 3:18-cv-01330

Document 19

Filed 02/21/20

Page 4 of 7 PagelD #: 1630

- 3;.Equitable Tolling
The expiration of the statutoiy limitations period does not act as a jurisdictional bar to
habeas relief; thus, the statute may be equitably tolled in appropriate cases. Holland, 560 U.S. at
645-49. The doctrine of equitable tolling is used sparingly and is typically applied “only when a
litigant’s failure to meet a legally mandated deadline unavoidably arose from circumstances
beyond that litigant’s control.” Jurado v. Burt, 337 F.3d 638, 642 (6th Cir. 2003) (citing GrahamHumphreys v. Memphis Brooks Museum of Art, 209 F.3d 552, 560-61 (6th Cir. 2000)). It is the
petitioner’s burden to show that he is entitled to equitable tolling, Griffin v. Rogers, 308 F.3d 647,
653; (6th Cir. 2002), a burden he may carry by showing “(1) that he has been pursuing his rights
diligently, and (2) that some extraordinary circumstance stood in his way and prevented timely
filing.” Holland, 560 U.S. at 649; see also Stiltner v. Hart, 657 F. App’x 513, 520 (6th Cir. 2016).
In his response to the motion to dismiss, the petitioner argues that the extraordinary
circumstance that prevented his timely filing was created by “attorneys,” as demonstrated by two
lettershe has attached to his response. (Doc. No. 17 at 3; Doc. No. 17-1 at 3, 5.) However, these
letters demonstrating post-conviction counsel’s refusal to amend his appellate brief (Doc. No. 171 at 3) and the Tennessee Attorney General’s decision not to respond to post-conviction counsel’s
application for permission to appeal-to the Tennessee Supreme Court (id. at 5) have nothing to do
With the petitioner’s ability to file his habeas petition on time, as the limitations period was tolled
during the entirety of the post-conviction process.
Additional correspondence attached to the petitioner’s response suggests some delay in
receiving trial transcripts from counsel following the conclusion of his direct appeal (Doc. No. 172 at 7), but the.petitioner’s pro se post-conviction filing was not unduly delayed as a result of his
lask of access to trial transcripts. As noted aboye, the petitioner still had 171 days after the state

Case 3:18-cv-01330 Document 19 Filed 02/21/20 Page 5 of 7 PagelD #: 1631

poji>-convietion process concluded in which to file a timely habeas petition in this court, yet he
failed to do so. Moreover, as the respondent points out, the Sixth Circuit has held that “the
unavailability of or delay in receiving transcripts is not enough to entitle a habeas petitioner to
equitable tolling,” because “trial transcripts]—although understandably helpful to petitioners—
[are] not necessary to file a habeas petition. . ..” Hall v. Warden, 662 F.3d 745, 750-51 (6th Cir.
2011). Equitable tolling is only appropriate in circumstances that prevent timely filing and are
“both beyond the control of the litigant and unavoidable with reasonable diligence.” Keeling v.
Warden, Lebanon Corr. Inst., 673 F.3d 452, 462 (6th Cir. 2012). Under the circumstances the
petitioner was faced with, it would not have taken more than reasonable diligence for him to file a
timely petition in this court, regardless of any delay he may have experienced in filing for postconviction relief in state court.
In sum, the petitioner has failed to carry his burden of showing that his case warrants
equitable tolling.
Finally, the petitioner makes no claim of actual innocence of the charges of conviction,
such that the court could reach the merits of his petition despite its untimeliness. See McQuiggin
v. Perkins, 569 U.S. 383, 392 (2013) (allowing that actual innocence can operate in rare cases as
an “equitable exception to § 2244(d)(1),” rather than grounds for tolling). Although the petitioner
claims that the evidence against him was insufficient to support his conviction, “‘actual innocence’
means factual innocence, not mere legal insu fficiency” of the proof against the petitioner. Bousley
V; United States, 523 U.S. 614, 623 (1998) (citing Sawyer v. Whitley, 505 U.S. 333, 339 (1992)).
.Therefore, this narrow exception to a procedural bar “must be based on reliable evidence not
presented at trial.” Calderon v. Thompson, 523 U.S. 538, 559 (1998); see McQuiggan, 569 U.S. at

6
Case 3:18-cv-01330 Document 19 Filed 02/21/20 Page 6 of 7 PagelD #: 1632

39.8-99 (requiring “new evidence” to invoke actual innocence exception to AEDPA’s statute of
limitations). No such claim based on new evidence is made here.
IV, Conclusion
For the reasons stated above, the respondent’s motion to dismiss (Doc. No. 15) is
' GRANTED. In view of its untimely filing, the petition for writ of habeas corpus (Doc. No. 1) is
DENIED and this action is DISMISSED.
“When a federal district court denies a habeas claim on procedural grounds without
addressing the claim’s merits, a certificate of appealability should issue if it is shown that jurists
of reason would find it debatable ... whether the district court was correct in its procedural ruling.”
Swaniak y. Romanowski, No. 08-CV-10126, 2008 WL 186127, at *2 (E.D. Mich. Jan. 18, 2008)
(citing Slack v. McDaniel, 529 U.S. 473, 484-85 (2000)). Because reasonable jurists could not
find it debatable that the court is correct in its procedural ruling under the circumstances presented
here.- the court declines to issue a certificate of appealability in this case.
This is the final order in this action. The Clerk MUST enter judgment. Fed. R. Civ. P.
58(b)(1).
It is so ORDERED.

:. .
:?

Aleta A, Trauger
(/
United States District Judge

7

Case 3:18-cv-01330 Document 19 Filed 02/21/20 Page 7 of 7 PagelD #: 1633

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE, TENNESSEE
GREGORY LAMAR MATHIS,
Petitioner
V.
KEVIN GENOVESE,
Respondent

)
)
)
)
)
)
)

Case No. 3:18-cv-01330
Judge Trauger

NOTICE OF APPEAL
Notice is hereby given, that the Petitioner, Gregory L. Mathis, pro se, pursuant to
F.R.A.P. 3(a)(1), (d)(1), appeals to the United States Court of Appeals for the Sixth
Circuit at Cincinnati, Ohio an Order and Memorandum, tendered February 21, 2020
denying his Petition fora Writ of Habeas Corpus; 28 USC §2254(b).
Further, and for purposes of Appellate Review, F.R.Civ.P. 62(g) (1), said Order
will accompany this Notice.
Respeptfully submitted,

|

/

l|v'
Gregory L Mattys, Petitioner, pro se
Turney Center Industrial Complex
1499 R. W. Moore Memorial Hwy.
Only, Tennessee. 37140-444050

CERTIFICATION

This is to certify, that the foregoing Notice of Appeal has been mail postage
prepaid and placed in the U.S. Mail to the Clerk, United States District Court for the
Middle District of Tennessee’ U.S. Courthouse, Room 800 801 Broadway, located at
Nashville, Tennessee37202. On this

day of_

2020.

Gregory iMmarmathis] Petitioner, pro se
C:file/glm

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
GREGORY LAMAR MATHIS,
Petitioner,

)
)
)
)

v.

)
)

KEVIN GENOVESE, Warden,

)
)
)

Respondent.

Case No. 3:18-cv-01330
Judge Trauger

ORDER
On February 21, 2020, this court entered judgment against the petitioner, dismissing his
petition for writ of habeas corpus under 28 U.S.C. § 2254 due to its untimely filing. (Doc. Nos.
19, 20.) On March 6, 2020, the petitioner filed a notice of appeal (Doc. No. 21) without paying the
appellate filing fee or seeking leave to proceed as a pauper on appeal. After the Sixth Circuit issued
notice of this requirement to the petitioner, he filed a motion seeking leave to proceed as a pauper
on appeal. (Doc. No. 23.) That motion was filed on April 3, 2020 and includes a copy of the
petitioner’s inmate trust fund account history for the preceding six months, as well as the
certification of an account custodian of the amounts reflected therein.
When a habeas petitioner files a notice of appeal, he must either pay the entire $505
appellate filing fee into the district court or obtain pauper status pursuant to Federal Rule of
Appellate Procedure 24(a). Kincade v. Sparkman, 117 F.3d 949, 952 (1997). Rule 24(a) provides
that a party seeking pauper status on appeal must first file a motion in the district court, along with
a supporting affidavit that “(A) shows in the detail prescribed by Form 4 of the Appendix of Forms
the party’s inability to pay or to give security for fees and costs; (B) claims an entitlement to

Case 3:18-cv-01330 Document 24 Filed 04/08/20 Page 1 of 2 PagelD #; 1660

redress; and (C) states the issues that the party intends to present on appeal.” Fed. R. App. P.
u

24(a)(1).
The court finds that the petitioner’s filing substantially complies with the requirements of
Rule 24(a)(1). His certified financial records reveal that he has not maintained a sufficient inmate
account balance to reasonably be able to pay the appellate filing fee, and the judgment he appeals
from was solely based on the timeliness of the petition. Accordingly, the petitioner’s motion for
leave to proceed in forma pauperis on appeal (Doc. No. 23) is GRANTED.
It is so ORDERED.

Z

Aleta A. Trauger
[/
United States District Judge

2
Case 3:18-cv-01330

Document 24 Filed 04/08/20 Page 2 of 2 PagelD #; 1661

No. 20-5262

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
V.
GREGORY LAMAR MATHIS,
Petitioner-Appellant,

Jul 14, 2020
DEBORAH S. HUNT, Clerk

L ........ ..-....... ,

)
)
)
)

....0 RDER
KEVIN GENOVESE, Warden,
Respondent-Appellant.

)
)
)
)

Before: SUHRHEINRICH, Circuit Judge.

Gregory Lamar Mathis, a pro se Tennessee prisoner, appeals the district court’s judgment
dismissing his petition for a writ of habeas corpus under 28 U.S.C. § 2254. The court construes
Mathis’s notice of appeal as an application for a certificate of appealability (COA). See Fed. R.
App. P. 22(b)(2).
In 2010, a jury convicted Mathis of aggravated burglary, aggravated robbery, and two
counts of especially aggravated kidnapping. The trial court sentenced Mathis to a total term of
126 years of imprisonment, and the Tennessee Court of Criminal Appeals affirmed. See State v.
Mathis, No. M2011-01096-CCA-R3-CD, 2013 WL477413Q (Tenn. Crim. App. Sept. 5, 2013),
perm. app. denied (Tenn. Dec. 12, 2013). On October 3, 2014, Mathis filed a petition for post­
conviction relief in the trial court, raising claims of ineffective assistance of trial counsel and denial
of due process. Mathis also claimed that he was entitled to a new trial based on newly discovered
evidence. The trial court denied Mathis relief, and the Tennessee Court of Criminal Appeals again
affirmed. See Mathis v. State, No. M2016-02516-CCA-R3-PC, 2017 WL 5624714 (Tenn. Crim.
App. Nov. 21, 2017),perm. app. denied (Tenn. Feb. 14, 2018).'
On November 26, 2018, Mathis filed a § 2254 petition in the district court, claiming that
the State of Tennessee failed to provide him with an adequate post-conviction remedy and that he

No. 20-5262
-2-

received ineffective assistance of counsel in his post-conviction proceedings. The district court
concluded that Mathis’s petition was untimely pursuant to the one-year statute of limitations in
28 U.S:C. § 2244(d)(1)(A) and that he was not entitled to equitable-tolling: The-district court
declined to issue a COA.
A COA may be issued “only if the applicant has made a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2). When a district court denies a habeas claim on
-proceduraTgrounds, the court may issue a COA~only if the applicant shows “that jurists of reason
would find it debatable whether the petition states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable whether the district court was correct in its
■ procedural ruling.” Slack v. McDaniel, 529 (J.S. 473, 484 (2000).
Pursuant to § 2244(d)(1)(A), a state prisoner must file his habeas petition within one year
Of “the date on which the judgment became final by the conclusion of direct review or the
expiration of the time for seeking such review.” The Tennessee Supreme Court denied Mathis
leave to appeal the decision of the Tennessee Court of Criminal Appeals affirming his convictions
on December 12, 2013. The § 2244(d)(1)(A) statute of limitations started ninety days later, on
March 13, 2014, when Mathis’s time to file a petition for a writ of certiorari in the United States
Supreme Court expired. See Bronaugh v. Ohio, 235 F.3d 280, 283 (6th Cir. 2000).
The statute of limitations ran until September 23, 2014—a period of 194 days—when
Mathis tendered his state petition for post-conviction relief to the prison mailing system. See
28 U.S.C. § 2244(d)(2). The statute of limitations remained tolled while the petition was pending
in the state courts. The limitations period started again on February 15, 2018, the day after the
Tennessee Supreme Court denied Mathis permission to appeal the decision of the Tennessee Court
of Criminal Appeals affirming the trial court’s judgment denying his petition. The statute of
limitations expired 171 days later, on August 6, 2018.
Mathis did not file his § 2254 petition in the district court until November 26,2018, almost
four months after the limitations period expired. Reasonable jurists thus could not debate the
district court’s conclusion that Mathis’s petition was untimely under § 2244(d)(1)(A).

No. 20-5262
-3 e

The district court also concluded that Mathis was not entitled to equitable tolling. Equitable
tolling is available if the petitioner exercised reasonable diligence in pursuing his claims and some
...... extraordinary circumstance prevented him from-filing a timely petition. See Hall v. Warden,
Lebanon Corr. Inst., 662 F.3d 745, 75Q (6th Cir. 2011)- Mathis blamed his post-conviction
attorney for his late petition, but reasonable jurists could not debate the district court’s conclusion
that Mathis failed to draw a connection between his attorney’s performance in the post-conviction
proceedings_and-his inability to"compiy-with~thoTiling deadline. Cf. Winkfteld v. Bagley, 66 F.
App’x 578, 582-83 (6th Cir. 2003) (holding that for purposes of the § 2244(d)(1)(B) statute of
limitations, which applies when the State has impeded a prisoner’s ability to file a federal habeas
petition, the prisoner must establish a connection between his attorney’s ineffectiveness and his
inability to file his petition). And reasonable jurists would not debate the district court’s conclusion
that Mathis failed to demonstrate that he was entitled to equitable tolling based on a credible
showing of actual innocence. See Souter v. Jones, 395 F.3d 577, 599 (6th Cir. 2005).
Finally, even if the district court’s decision on the statute of limitations were debatable,
Mathis’s petition raised only errors that allegedly occurred in his state post-conviction
proceedings, which are not cognizable under § 2254. See Dufresne v. Palmer, 876 F.3d 248, 254
(6th Cir. 2017) (per curiam) (holding that when a district court denies a claim on procedural
grounds, a COA will not issue unless reasonable jurists could debate whether the prisoner’s claim
had arguable merit); Cress v. Palmer, 484 F.3d 844, 853 (6th Cir. 2007) (“[T]he Sixth Circuit has
consistently held that errors in post-conviction proceedings are outside the scope of federal habeas
corpus review.”).
Accordingly, the court DENIES Mathis’s COA application.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Additional material
from this filing is
available in the
Clerk's Office.

